                     Report on Audit of Compliance
                   With Cost Accounting Standard 416,
                    Accounting for Insurance Costs

                                 August 2004

                     Reference Number: 2004-1C-163




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           August 31, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Compliance With Cost Accounting
                              Standard 416, Accounting for Insurance Costs
                              (Audit #20041C0245)


       The Defense Contract Audit Agency (DCAA) performed an examination regarding the
       contractor’s compliance with the Cost Accounting Standards (CAS) and the Federal
       Acquisition Regulation (FAR). The purpose of the examination was to determine
       whether the contractor complied with the requirements of CAS 416, Accounting for
       Insurance Costs, and any applicable FAR Part 31 requirements during the period
       January 1, 2003, through December 31, 2003.
       The DCAA noted that the contractor converted to a PeopleSoft-based accounting
       system in January 2004. The DCAA is not aware of any inadequacies concerning the
       new system’s accumulating, reporting, and billing costs on Government contracts.
       Furthermore, the DCAA indicated that prior to the accounting system change, the
       contractor’s accounting system was considered adequate for Government accounting
       purposes.
       The DCAA opined that the contractor complied, in all material respects, with the
       requirements of CAS 416, during the period January 1, 2003, through
       December 31, 2003.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
